No.

&/1/

iSuftr&mrt' (jouri/ oftAo 9/rt&b&d

ROBERT R. SNYDER,
Petitioner,
vs.
THE STATE OF CALIFORNIA
Respondent

On Petition For Writ Of Certiorari
To the California Supreme Court

PETITION FOR A WRIT OF CERTIORARI

ROBERT R SNYDER, In Pro Se
D.O.C. No. AC9136, RJDCF
480 Alta Road
San Diego, CA 92179
(619) 661-7862

i

QUESTIONS PRESENTED
1. Has California’s justice system forgotten what
was taught by this Court’s holding in Wilson v. Seiter
[501 U.S. 294 (1991)]. (Regarding 8th Amendment
inquiries requiring only minimal showing of
“...specific deprivation of single human need must
exist..,”) as it allowed its department officials to
deprive prisoners of manifold necessities for months?
2. By issuing a summary denial, did the state fail to
accord petitioner’s federal constitutionally
guaranteed rights in this matter?
3. Did the state courts violate their Article 6 oath by
their failure to resolve petitioner’s meritorious
claims?
4. Does the 14th Amendment due process demand
non-silent regulations regarding lockdown, a key
function within the operation of a state prison?
5. In light of petitioner’s liberty interest being at
stake, should that require CDCR’s rule making body
to draft a regulation governing usages of lockdown
procedures to explain for: 1) the cause for initiation
of the lockdown, 2) duties during and after a
lockdown and 3) key considerations overall that
would facilitate improvements in the determinative
process, thereby avoiding any future occurrences of harm
caused by indiscretions.

"!

ii

6. Did the 9th circuit court of appeals wrongly decide
Norwood v. Vance as it may relate to Petitioner’s habeas
claims of being denied adequate outdoor exercise?
7. Should this Court more often question the wisdom
behind Correction’s Agencies unconstitutional
decisions . ., thus reviving speculation into age old
deference for modern day, high-tech complications?
8. Should widespread judicial standards be
established because of the enormous weight of Civil
Rights violations encompassed inside arbitrarily
determined, month(s) long lockdown situations?
9. Is the state’s compulsive use of sub silentio
designed to prevent Federal Authority from
acquiring a thorough view of material issues—the
prerequisite for a full quorum discussion?
10. Should the initiating of Lockdowns exceeding 72
hours become a decision solely entrusted to the
prison’s nearest Superior Court having experience in
handling judgments of such astounding consequence?
11. Does this example of the abusive usage of
lockdown by a Warden demonstrated below, pose a
serious enough risk to prisoner’s health—pro tanto it
affects all inmates in a facility—to generate concern
by this court for the instant cause?
12. Despite petitioner’s innovative proposal, is this
yet another example of California turning a dull
heart to another great way to get on the fast track
towards lasting improvements and soften the impact
of some of the more alarming abuses that distract

iii

focus away from attempting to remedy a nearly
dysfunctional system already burdened down by the
weight of overcrowding?
13. Does the substance of this matter expose
California’s prison system as routinely creating
overly restrictive customs—those founded upon pretextual goals that violate conditions precedent when
the “safety and security” smokescreen is being
announced much too often?
14. Did the California Supreme Court deliberately
refuse to acknowledge correspondence from
Certiorari petitioner because it feared the extra
strength of merit especially the Plata implications
and the retaliation allegation?
15. Did the states’ decision to deny relief imply bias
derived from petitioner’s numerous critiques of its
prison conditions in the past?

iv

TABLE OF CONTENTS
Page
PETITION FOR WRIT OF CERTIORARI . .

1

OPINIONS AND ORDERS

1

Opinions and Orders from the California state
courts.....................................................

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING CERTIORARI . .

5

ARGUMENT

7

CONCLUSION

11

CERTIFICATE OF COMPLIANCE

13

VERIFICATION

13

V

TABLE OF CONTENTS - Continued
Page
APPENDIX
Order Denying Petition for Writ of Habeas Corpus,
California Supreme Court, June 12, 2019.. App. 1
Order Denying Petition For Writ of Mandate,
Second District Court of Appeal, Division
Four of California, Feb. 08, 2018............... App. 2
Order Denying Writ of Mandate, Superior
Court of L.A. County, Nov. 28, 2017 . . App. 3-4

TABLE OF AUTHORITIES
Page
FEDERAL CASES
Brown v. Plata (2011) 179 L.ed. 2d 967,
493 U.S. at pg. 978
................

10

Camps v. Nutter, 2017 U.S. Dist., Lexis
No. 98932 .................................

7

Hutto v. Finney 57 L.Ed 2d 522, 538 (1978). .

8

Milliken v. Bradley 433 U.S. 267 (1977) ...

6

vi
TABLE OF AUTHORITIES- Continued
Page
Norwood v. Vance, 572 F.3d 626, 630

ii, 9

(9th Cir. 2008).................
Palmer v. Richards, 364 F.3d 60

(2d Cir. 2004)

....

10

Roberts v. Mahoning County, (ND Ohio,
2007) 495 F. Supp. 2d 719 . .

6

Rodriguez v. Robbins, 715 F.3d 1127
(9th Cir. 2013)......................

7

Sandin v. Connor, 515 U.S. 472, 115 S.Ct. 2293,
132, L.Ed.2d 418 (1995)................. ... 10
Spain v. Procuiner, 600 F.2d 189, 199-200
(9th Cir. 1979)....................................

4,9

Turner v. Safley (1987), 482 U.S. 78, 87-92 . . 12
Walker v. Gomez, 370 F.3d 969, 972
(9th Cir. 2003) ......
Wilson v. Seiter. (1991) 501 U.S. 294

9
. .

i

Wolff v. McDonnell (1974) 418 U.S. 539, 542. . 10

vii
TABLE OF AUTHORITIES- Continued
Page
FEDERAL STATUTES
28 U.S.C. § 1257(a)

1

18 U.S.C. § 3626 and 28 U.S.C. § 2284 .... 6
FEDERAL RULES
U.S. Sup. Ct. Rules, 10(c), 13, 30

. 1

1
PETITION FOR WRIT OF CERTIORARI
Robert Snyder respectfully petitions for a writ
of certiorari to review the denial of a Petition for writ
of habeas corpus by the California Supreme Court.

OPINIONS AND ORDERS BELOW
Opinions and Orders from the California
state courts.
The June 12, 2019 document from the
California Supreme Court denying petitioner’s
habeas corpus (Case No. S253903) is attached at
App. 1. Petitioner sought relief from the California
Court of Appeal only to have his petition, Case No.
B287811 denied by Order on February 08, 2018. The
Order is attached at App. 2. The November 28, 2017
Order from Los Angeles Superior Court initially
denying relief in this matter is attached at App. 3-4.

JURISDICTION
This Petition is authorized by United States
Supreme Court rules, Rule 10(c) and is timely filed
in accordance with Rule 13 and 30. This action is
also 28 U.S.C. § 1257(a) relative.

2

CONSTITUTIONAL PROVISIONS
This pro se Petitioner’s case involves issues
related to the First, Eighth and Fourteenth
Amendments to the United States Constitution.

STATEMENT OF THE CASE
Petitioner originally mailed a Review Request
to the California Supreme Court (hereafter CSC)
concerning this matter, on February 18th, 2018
having complied with Cal Rules of Court (hereafter,
CRC), Rule 8.500. Petitioner possess documentary
and photographic evidence to the effect it was timely
submitted to FedEx. FedEx documents and a follow­
up phone call confirmed delivery to the Court.
Petitioner waited patiently for 8 months
before drafting a demand for a ruling on October 27,
2018. The clerk returned this document unfiled and
in unison denied the review petition’s existence. A
phone call to the clerk at CSC generated an
incredible story about what might have happened to
the document. Without hesitation, petitioner
believed this Court would see his offer of proof and
still review certiorari in defiance of CSC’s reprobate
clerk. California Department of Corrections and
Rehabilitation, (hereafter CDCR) celebrated and our
programming was on and off partial lockdown for
months without good cause or other recourse.

3

Petitioner filed a Habeas Corpus in CSC on
January 18, 2019. That Habeas was summarily
denied June 12th 2019. Utilizing a go for broke
approach to procedurally bar these claims, a timely
Certiorari follows.
The CSC knows what a heavy obstacle is,
nothing like the inordinate delay. Their Rules
impose strict time frames for petitioners seeking
review. CSC’s clerks and jurists certainly have a
disciplined understanding or what inmates confront
while struggling to shoulder the burdens placed by
large passages of time trekking the arduous road
called “seeking justice.” Despite this, we can bear
witness to their occasionally working an injustice
upon a load bearing pleader, something incompatible
with their pledge to defend the constitution. The
non-exemplary delay techniques of what’s above
demonstrated to CSC’s discredit.., should not pose
an exception to the crushing weight of this court’s
earlier decrees.
CSC’s summary or mixed denial disclaiming
responsibility for petitioner’s case behind
“exhausting ‘available’ remedies,” was amusing and
suspicious... giving rise indefinitely to various
important questions certainly were petitioner
alleging an attempt to starve him, no court would
request compliance with a grievance or claims
procedure. However in the case here side bar the
instant party in pursuit of truth avers he was
starved of many fundamental requirements intrinsic

4
to constitutionally approved incarceration: fresh air,
outdoor exercise, and peace and quiet necessary to
competently litigate. In Spain v. Procuiner, 600 F.2d
189, 199-200 (9th Cir. 1979) the denial of outdoor
exercise violates the 8th amendment proscription
against cruel and unusual punishment.
Interestingly, the Trial Court docketed
petitioner’s case and responded appropriately to his
pleadings in 11 days as it was captioned with the
words; “Emergency Order Requested.” Accordingly,
petitioner’s case was given due regard also by
California’s intermediate Appellate Court as they
required only 9 days and they respected due process
procedures. It was then disappointing to see how
the only gamesmanship, came from the state’s high
court.
The protections of the 14th Amendment
extend to state prison, particularly with respect to
the deprivation of a fundamental right. A prolonged
prison lockdown interferes with every constitutional
mandate.
On every occasion I declare the truth
unfettered from bias. The relevant lower Court
proceedings plainly explained to California’s Justice
System how its corrections department ignored
notices that a serious risk towards a large inmate
population exists. Instead of ameliorating the risk
posed, facility officials at CSP-Los Angeles went off
the deep end and responded by vindictively
instituting retaliatory measures in direct connection
to the first court filing in Antelope Valley Superior
Court. An abundance of caution to abate the

5

excessive risk to the E.O.P. inmates was not used;
instead they lengthened the period of lockdown and
intensified the appurtenant restrictions attendant to
the confinement such as being walked in iron
bracelets to the shower and back and denied outdoor
exercise.
The California Courts denied the merit of the
matter while keeping their basis for those upsetting
decisions a secret. The denials moreover highlight
the outrageous results of still more shocking legal
contradictions upheld while CSC negligently
supervised the coordinated indiscretions by the lower
court.

REASONS FOR GRANTING CERTIORARI
As odd as it may sound, this case explores but
one of perhaps a hundred different illegal customs
routinely implemented by the CDCR. Certainly
petitioner identified the usage of extended
confinement of prisoners (many with serious mental
disorders) as a first priority when he used all his
time in the cell during November and December of
2017 to write the mandate request for Antelope
Valley’s local court.
Overcrowding (starting decades ago),
presented California’s corrections officials with both
a challenge and/or an opportunity. In some ways
they utilized lockdowns as an opportunity to

6
implement a new species of cruel punishments.
Twenty-three ‘hits’ appeared after typing “lockdown
as punishment” into a basic search engine licensed
by Matthew Bender®. Not all of these controversies
originated in California’s Courts. The acts that
formed the basis of petitioner’s cause occurred
shortly after he filed case No. 17-614 in this Court.
CDCR’s offensive business of prolonged,
absurdly determined lockdown or otherwise casual
usage of highly restrictive, illegal customs has
become a recurrent nuisance as these are being used
as a weapon.
Had CSC taken more than a moment to
consider reviewing this matter, they would have
discovered this case: Roberts v. Mahoning County,
(ND Ohio, 2007) 495 F. Supp. 2d 719. From what is
gathered there, a 3-Judge Court pursuant to (18
U.S.C. § 3626 et seq.) and (28 U.S.C. § 2284), entered
a consent judgment with a stipulated population
order. State and local authorities have the primary
responsibility for curing the constitutional violation,
according to Milliken v. Bradley 433 U.S. 267 (1977).
Certainly Certiorari would allow California’s officials
to return to their conscious senses and adopt a
similar, balanced approach towards discharging
public duty. Currently, the Warden need only consult
the Department Secretary before initiating a
lockdown. CDCR’s Department Secretary retired
recently, leaving a wake of scandals exposing
medical neglect, torture and murder, according to
Justia.com.

7

The most insipid variety of summary denial is
what CSC did below; they blatantly refused to
acknowledge the proof that FedEx delivered the
document to their clerk on time. They claimed to
have never received the document. This sort of
illegal stunt causes inmates a crippling frustration.

ARGUMENT
Many unpublished opinions exist throughout
the District Courts across America, alleging facts
framed around lockdown and its damaging effects.
One such instance out of hundreds is: Camps v.
Nutter, 2017 U.S. Dist., Lexis No. 98932. The words
“nearly continuous lockdowns” were recorded in the
opinion. I would suggest that authority exists
somewhere to support petitioner’s point that the
contents pending determination deserve review via
Certiorari on the grounds that reckless prison
administrations are an important and compelling
concern. Hopefully they are not being lulled by the
guards into causing such forms of privation.
Petitioner knows first hand that this is an
issue of great public significance because it involves
depriving the rights of a large number of persons; it
seems well deserving of an exercise of this Court’s
discretionary powers. All citizens have a stake in the
courts upholding the Constitution, Rodriguez v.
Robbins, 715 F3d 1127 (9th Cir. 2013). The
American people cannot afford for the other 49 states

8

to pull a page out of CDCR’s playbook, assuming
they too can operate under the color of impunity.
Now, turning to a figurative background:
Lancaster’s guards complained to facility operation
managers that inmates were frequently assaulting
them. Turns out that out of 5 such incidents, 4 in­
mates sustained serious injuries and 1 officer.
Considering all those 5 incidents happened during a
period of 90 days at the enhanced outpatient
program/Coleman class member, E.O.P. facility.
The length of confinement can’t be ignored when
determining the constitutionality of the confinement,
Hutto v. Finney 57 Led 2d 522, 538 (1978). Two
separate 30-day lockdowns ensued within 90 days.
The responsible party, the respondent, was
competent at the time of this arrogant decision; he
thereby acted with knowledge that a prolonged
lockdown was unnecessary—avaunt, clearly
unlawful. Were the lockdowns enacted solely for the
staffs benefit?
Disparate treatment: The prison at CSP-Los
Angeles put out a memo six months earlier
documenting a series of events where their discretion
urged activation of a lockdown. The Warden’s
description of the need was no different than the
ones in question here. That lockdown was two weeks
before this author arrived at LA County’s only
penitentiary on May 18th, 2017. A memo, called a
“PSR” (Program Status Report) is suppose to be
distributed to inmates and staff weekly during a
lockdown. That lockdown lasted a little over a week.
The CSC was shown three memos side by side; the

9

other two were the only ones inmates received from i
the late 2017 lockdown. If there was substantial
evidence for imposing the lockdowns, it was not
shared with the inmates per their regulations. This
begs the question, “why suddenly the exaggerated
response to similar circumstances?”
The prison officials may respond to that
question if forced, rendering anything besides
confessed error. ., folderol. It is axiomatic that
lockdowns, in some cases serve a legitimate
penological interest. In contrast, here there’s no
rational connection between Lancaster’s would-be
explained version and the objectively unreasonable
lockdown duration. The action itself, selected by the
Department cannot withstand Constitutional
scrutiny from the “Reasonableness Standard”.
Judges from the ninth appellate circuit treated
a case in 2003 entitled—Walker v. Gomez, 370 F.3d
969 where multiple officer involved incidents and/or
disturbances happened; (3rd incident at Calipatria’s
B-Facility. A gang member stabbed a staff member.
Programming resumed 12 days later) (id. at 972).
Violence involving prison employees usually causes
somewhat longer lockdowns than that, but 30 days
on an E.O.P. yard is unheard of.
Denial of outdoor exercise constituted cruel
and unusual punishment according to Spain v.
Procunier, 600 F.2d 189, 199-200 (9th Cir. 1979) as
quoted by Norwood v. Vance, 572 F.3d 626, 630
(9th Cir. 2008) (THOMAS, J. dissenting).

10
The CDCR’s decision to confine 600 inmates
for the mistakes of a few, over the dreadful course of
9 weeks arguably gives rise to the appearance of
retaliatory animis—a charge alleged thousands of
times over by American prisoners. While CDCR’s
need for this procedure has long since gone
unexplained . ., petitioner here remembers that
many verifiable suicide attempts took place at the
time. "... lockdowns further impeded the effective
delivery of care,” citing Brown v. Plata (2011) 179
L.Ed. 2d 967, 493 U.S. at pg. 978. The severity of the
condition during lockdown also matters. In Palmer
v. Richards, 364 F.3d 60 (2d Cir. 2004) the court held
that aggravated conditions for 77 days could be
‘atypical and significant’. Overly suspicious
respondents steadfastly maintain their highly
questionable position: Prisoner Inhumanity is none
of petitioner’s business.
California’s unapologetic course of action
continues to elude justice and may be a prelude to
influencing its 49 sister states to adopt similar cruel
customs, without any concern for procedural due
process. Petitioner argues that as well, the
‘important questions’ test/the first headnote from
Wolff v. McDonnell 418 U.S. (1974) 539, 542 applies
to the unsupervised Warden’s decision to turn his
whole E.O.P. yard into a dark, dank dungeon severe
enough to meet the “significant and atypical”
standard. The lockdown conditions of confinement
were much worse than what is normal for prisoners.
These rights guaranteed by Wolff still apply under
Sandin v. Connor, 515 U.S. 472, 115 S.Ct. 2293,132,
L.Ed.2d 418 (1995).

11
The duties of a prison during lockdown include
(1) investigation, (2) weapons search and (3) time to
permit a highly charged situation to cool down. This
happened at Lancaster after 10 days. Unfortunately,
the sub-culture behind the mindset used by
California when it decided to violate (Cal Penal Code
§ 236), the personal liberties of very many inmates,
remains active in its effect. In the corrections
regulation manual, CCR Title 15 Div. 3, it is
absolutely silent as to the operation of lockdowns.
CDCR’s regulatory authority does not contain
anything substantial to guide official decision
making; apparently that invited the afore noted
arbitrary application. Arbitrary lockdowns are akin
to false imprisonment except for some dire
emergency.
Oportet quad certa res deducatur in judicium.

CONCLUSION
The levels of this sort of massive tortious
activity were amplified on the behalf of CDCR
officials; petitioner would prefer to not presume that
this bad faith confidence was built upon the CSC’s
numerous, previous and favorably written decisions
in support of California’s corrections department. All
of Lancaster’s D-facility staff profited ob vitae
solatium; keeping watch over fully confined inmates
requires much less concentrated effort.

12

<

CSC could have upheld the reasonableness
standard and still utilized summary procedures also
if—but only if—done so to petitioner’s reprieve, [cf.
Turner v. Safley (1987), 482 U.S. 78, 87-92], It would
have been preferable for all parties that this cause of
action have its resolve quietly; there’s no joy in un­
veiling the conflicting goals of the state. A workable,
less restrictive alternative could have been forged
without compromising essential facility security
factors.
Ironically for a system that paroles so com­
paratively few lifers using “lack of insight” as its
misrepresented rational. ., the CDCR’s own
questionable insight cannot progress itself until its
own High Court unleashes many attention
demanding rulings, effectively outlawing many of
their underground policing tactics. However, at this
rate, petitioner remains dubious with hopes this is a
reasonable expectation. Nonetheless, this Court can
teach California a valuable lesson in a positive
manner, were it to determine petitioner’s controversy
as re viewable. Finally, petitioner prays his relevium
through a grant of Certiorari ex merito justitiae:
ratio est radius divini luminis.

13
CERTIFICATE OF COMPLIANCE
WITH RULE 14
Petitioner here made every effort to comply
with the standards and restrictions governing
content, according to the Supreme Court Rule 14.
To the best of petitioner’s knowledge, this motion for
rehearing is both formally and procedurally correct.
Petitioner believes that the contents of the above
document will show this motion is presented in good
faith, as it is a fact that petitioner and other
similarly situated EOP prisoners are in need of relief
and that it is certainly not for the purpose of delay.

VERIFICATION
I am the petitioner in this action. All of the
alleged facts are true to the best of my knowledge
and beliefs. This document was written in good faith
and with respect to the penalty of perjury. Both of
the above Dated: 07/ 21 /2019
Respectfully submitted,
Robert R. Snyder,
Petitioner in Pro Se

